No. 20-222

In the Supreme Court of the United States
__________
GOLDMAN SACHS GROUP, INC., et al., PETITIONERS,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, et al.
__________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
__________
CERTIFICATE OF SERVICE
__________
As required by Supreme Court Rule 29.5(b) and this Court’s Order of April
15, 2020 (ORDER LIST: 589 U.S. __), I, Christopher E. Duffy, a member of the Bar
of this Court and an attorney for amicus curiae the Society for Corporate
Governance, hereby certify that an electronic copy of the Amicus Curiae Brief of the
Society for Corporate Governance in Support of Petitioners has this day been served
upon all parties required to be served, at the email addresses identified below,
pursuant to the parties’ agreement to receive only electronic service:
Thomas C. Goldstein, Esq.
Goldstein & Russell, P.C.
7475 Wisconsin Avenue, Suite 850
Bethesda, MD 20814
tgoldstein@goldsteinrussell.com
Attorney for Respondents
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
kshanmugam@paulweiss.com
Attorney for Petitioners
I further certify that on September 24, 2020, I caused to be sent to this Court
one paper copy of the Amicus Curiae Brief of the Society for Corporate Governance
in Support of Petitioners by FedEx overnight shipping.
1

